FINANCIAL MANAGEMENT PRACTICES IN THE
       MILITARY SEALIFT COMMAND



                               September 25, 1998




   Office of the Inspector General
       Department of Defense
  Additional Information     and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions   for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                             Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
DFAS                  Defense Finance and Accounting Service
DJAS                  Defense Joint Accounting System
FMIS                  Financial Management Information System
MSC                   Military Sealift Command
STAS                  Standard Transportation Accounting System
USD(C)                Under Secretary of Defense (Comptroller)
USTRANSCOM            U.S. Transportation Command
WCF                   Working Capital Fund
                              INSPECTOR     GENERAL
                             DEPARTMENT    OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                        September 25, 1998

MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                       COMMANDER IN CHIEF, U.S. TRANSPORTATION
                          COMMAND
                       DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                          SERVICE
                       COMMANDER, MILITARY SEALIFT COMMAND

SUBJECT:    Audit Report on Financial Management      Practices in the Military Sealift
            Command (Report No. 98-205)


        We are providing this audit report for review and comment. This audit was
performed in response to a request by the Under Secretary of Defense (Comptroller). We
considered management comments on a draft of this report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments from the U.S. Transportation Command and Defense Finance and
Accounting Service, were not fully responsive. We request that they provide additional
comments on Recommendations      B. 1. and B.2. by November 24,1998.

        We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. David F. Vincent, at (703) 604-9110
(DSN 664-9 1 lo), e-mail <DVincent@DODIG.OSD.MIL>;           or Ms. Barbara A. Sauls, at
(703) 604-9129 (DSN 664-9129), e-mail <BSauls@DODIG.OSD.MIL>.                See
Appendix D for the report distribution. A list of audit team members is on the inside
back cover.




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                              for Auditing
                            Office of the Inspector General, DOD

Report No.                                                             September 25,199s
   (Project No. 7FH-5046)



                            Financial Management Practices
                            in the Military Sealift Command

                                   Executive Summary

Introduction. This audit of the financial management practices at the Military Sealift
Command was performed at the request of the Under Secretary of Defense (Comptroller). As
part of the audit of financial management practices, the Under Secretary of Defense
(Comptroller) requested an assessment of financial reporting, standard operating procedures,
and the financial accounting and management systems at the Military Sealift Command.

On December 11, 1996, the Under Secretary of Defense (Comptroller) separated the Defense
Business Operations Fund into four Defense Working Capital Funds, which are Army, Navy,
Air Force, and Defense-Wide. On October 1, 1997, the Under Secretary of Defense
(Comptroller) transferred the U.S. Transportation Command from the Defense-Wide
Working Capital Fund to the Air Force Working Capital Fund for cash management
purposes. Those realignments do not affect the matters discussed in this report. In FY 1997,
the U.S. Transportation Command reported revenues of $4.4 billion, operating expenses of
$4.5 billion, and a positive net position of $1.2 billion.

Audit Objectives. The primary audit objective was to assess the financial management
practices of the Military Sealift Command, including the financial accounting systems and
procedures. We also reviewed the management control program as it applied to the audit
objective. We performed a limited review of the Financial Management Information System
that the Military Sealift Command used. Prior audit reports identified the deficiencies noted
in this report and remain relevant. As a result of the continuing deficiencies, we concentrated
our efforts on the DOD Interim Migratory Accounting Strategy for selecting an accounting
system for the transportation business area. We assessed the DOD Interim Migratory
Accounting Strategy’s ability to correct the financial management and reporting problems at
the Military Sealift Command.

Audit Results. Since FY 1992, the Military Sealift Command has taken major steps to
improve financial accounting and reporting systems. For example, the Military Sealift
Command established a plan to bring overall financial management systems into compliance
with DOD regulations. In addition, the Military Sealift Command established standard
operating procedures for the Accounting Division. The Military Sealift Command also made
a system change that improved the calculation of accrued cargo expenses. Despite those
steps, the Military Sealift Command continues to have significant financial reporting
problems. As a result, the Financial Management Information System will continue to
provide inaccurate financial reports to the U.S. Transportation Command and the Navy
(Finding A).

The U.S. Transportation Command will not have a standard transportation accounting system
to properly manage the transportation business area. In January 1998, the U.S.
Transportation Command abandoned its attempt to develop a single standard accounting
system and decided to develop or upgrade its own accounting and financial management
system at an undeterminable cost. The transportation business area’s current approach will
no longer reduce four disparate existing systems to a single standard accounting system
(Finding B).

Summary of Recommendations.          We recommend that the Commander in Chief, U.S.
Transportation Command, and the Director, Defense Finance and Accounting Service
(DFAS), perform an accelerated feasibility study to determine whether the transportation
business area can cost-effectively migrate to a single standard accounting system. The
Command should also adhere to DOD regulations for replacing systems and prepare a
strategy that includes feeder systems. The feeder system plan should comply with the
requirements of the National Defense Authorization Act for Fiscal Year 1998. The plan
should determine the number of feeder systems, provide milestones for implementing
corrections, and estimate the cost to modernize the feeder systems.

Management Comments. The U.S. Transportation Command and the Director, DFAS,
nonconcurred with the recommendation to determine whether the transportation business area
can migrate to a single standard accounting and financial management system and to
determine the cost to migrate to a single system instead of developing or upgrading four
disparate systems. The Command stated that to move to a single system would be cost
prohibitive, would take too long, and would provide greater risk. The Director, DFAS,
agreed. The Director, DFAS, stated that it is best to have a suite of compliant migratory
accounting systems. In addition, the Command stated that the DOD delay in selecting a
transportation migration system forced it to rely on a non-compliant system for over 3 years.
Consequently, the Command is in the process of implementing a commercial off-the-shelf
system. The Command is trying to achieve the FY 1999 goal of financial statements with
unqualified opinions. The Command agreed to comply with regulatory requirements for
future replacement of financial management systems. See Part I for a discussion of
management comments and Part III for the complete text of management comments.

Audit Response. The comments from the U.S. Transportation Command, were partly
responsive. We agree that scarce resources should be directed toward developing and
implementing integrated financial management systems. We are not certain that the
Command is correct on the DOD position on migrating to a single system. The comments
from the Director, DFAS, were not responsive. The approach used by the Command may not
prove the “ best fit” migratory strategy. The Command, in conjunction with DFAS, should
assess the benefits and problems associated with migrating to a single system. Without a
study, the Command and DFAS can not support the position that migrating to a single system
would be costly, take too long, and increase risk. The delays have made it difficult, but not
conducting a feasibility study could exacerbate the problem. We are concerned that in a 4-
month period, the Command abandoned a plan of 5 years and purchased an information
technology system without any study that shows it is the best approach. The Command
response did not answer the recommendation on improving feeder systems. We request the
U.S. Transportation Command and the Director, DFAS, reconsider their position and provide
additional comments on the recommendations by November 24, 1998.




                                              ii
Table of Contents

Executive Summary                                                         i


Part I - Audit Results

      Introduction
      Audit Background
      Audit Objectives
      Finding A. Financial Reporting at the Military Sealift Command
      Finding B. The Migration System Strategy for Transportation

Part II - Additional Information

      Appendix A. Audit Process
      Scope and Methodology
      Management Control Program
      Appendix B. Prior Audit Coverage
      Appendix C. Chronology of the Transportation   Migration Strategy
      Appendix D. Report Distribution


Part III - Management      Comments

      U.S. Transportation Command Comments
      Defense Finance and Accounting Service Comments
Part I - Audit Results
Introduction

     This audit of the financial management practices at the Military Sealift Command
     (MSC) was performed at the request of the Under Secretary of Defense
     (Comptroller) (USD[C]). As part of the financial management practices, the
     USD(C) requested an assessment of financial reporting, standard operating
     procedures, and the financial accounting and management systems at MSC.


Audit Background

     On April 18, 1987, the Secretary of Defense established the U.S. Transportation
     Command (USTRANSCOM) as a unified command to integrate global air, land,
     and sea transportation during wartime. In 1992, the role of USTRANSCOM
     expanded to include a peacetime mission. Headquartered at Scott Air Force Base,
     Illinois, USTRANSCOM executes its mission through the following three
     Component Commands: the Military Traffic Management Command, Falls
     Church, Virginia; the Military Sealift Command, Washington, D.C.; and the Air
     Mobility Command, Scott Air Force Base, Illinois.

     In FY 1997, USTRANSCOM reported revenues of $4.4 billion, operating
     expenses of $4.5 billion, and a positive net position of $1.2 billion.
     USTRANSCOM, as manager of the Working Capital Fund (WCF) transportation
     business area, provides management oversight of its Component Commands’
     budget, mission operations, and financial systems. USTRANSCOM participates
     in all accounting and financial issues concerning its Component Commands.

     MSC, a Component Command, provides sea transportation of equipment,
     supplies, and ammunition to sustain U.S. forces worldwide. During FY 1997,
     MSC provided 25 percent, or $1 billion, of the revenue and expenses of
     USTRANSCOM.

     USTRANSCOM and MSC Financial Reporting. USTRANSCOM and MSC
     are responsible for the accuracy of information entered into financial systems and
     reported on the financial statements. The Defense Finance and Accounting
     Service (DFAS) Denver Center consolidates the financial data for
     USTRANSCOM and its Component Commands and prepares the financial
     statements required by the Chief Financial Officers Act. The transportation
     accounting functions for the three Component Commands were relocated to the
     Omaha Operating Location in Nebraska.

     On December 11, 1996, the USD(C) separated the Defense Business Operations
     Fund into four Defense WCFs, which are Army, Navy, Air Force, and Defense-
     Wide. In addition, on October 1, 1997, the USD(C) transferred the
     USTRANSCOM from the Defense-Wide WCF to the Air Force WCF for cash
     management purposes. Those realignments do not affect the matters discussed in
     this report.

                                          2
Audit Objectives

     The primary objective of our audit was to assess the financial management
     practices of the MSC, including the financial accounting systems and procedures.
     We assessed whether the modernization of transportation data feeder systems’ was
     included in the transportation business area’s interim accounting system
     development effort. We also reviewed the management control program as it
     applied to the audit objective.

     We performed a limited review of the Financial Management Information System
     (FMIS) that MSC used. Prior audit reports discussed the deficiencies noted in this
     report and remain relevant. As a result of the continuing deficiencies in FMIS, we
     concentrated our efforts on the DOD Interim Migratory Accounting Strategy (the
     Strategy) for selecting an accounting system for the transportation business area
     and the Strategy’s ability to correct the financial management and financial
     reporting problems of MSC. See Appendix A for a complete discussion of the
     audit scope, methodology, and management control program. Appendix B
     discusses prior coverage related to the audit objectives.




     ‘A data feeder system is an automated or manual system from which information is derived for a
     financial management system or accounting system. Source: The National Defense Authorization
     Act for FY 1998.
           Finding A. Financial Reporting at the
           Military Sealift Command
           Since FY 1992, MSC has taken significant steps to improve financial
           accounting and reporting systems; however, problems remain. MSC
           continues to experience financial reporting problems because of existing
           weaknesses in FMIS. The weaknesses include several accounting
           deficiencies that cause FMIS to be noncompliant with Volume 1, DOD
           Regulation 7000.14-R, “ DOD Financial Management,” May 1993, for
           accounting principles, standards, and policies. Further, MSC has a
           fragmented financial reporting process. The DOD moratorium of
           October 13, 1993, on funding system changes, prevented MSC from
           bringing FMIS into compliance with the DOD and Office of Management
           and Budget requirements. As a result, FMIS will continue to provide
           inaccurate financial reports to USTRANSCOM and the Navy.


The Financial Management Information System

    History of FMIS. FMIS is an accounting and financial management system that
    supports the WCF Transportation and Navy business areas at headquarters, MSC.
    FMIS was developed in 1989 and implemented in 1993. FMIS is a commercial
    off-the-shelf system that contains various modules such as a general ledger and
    accounts payable.

    During the initial DOD evaluation of migratory accounting and financial
    management systems, both FMIS and the Corps of Engineers Financial
    Management System were considered to be adequate for MSC. After further
    analyses, DFAS did not recommend FMIS as a migratory system for the overall
    transportation business area. Some of the reasons for rejecting FMIS were
    concerns with numerous problems identified in prior Inspector General, DOD, and
    Naval Audit Service reports. Specifically, the reports note that FMIS did not use
    the DOD standard general ledger; did not make the most efficient use of data
    processing and accounting methodology; and did not fully comply with
    accounting principles, standards, and policies as required in DOD Regulation
    7000.14-R. In addition, noted FMIS deficiencies include inaccurate general
    ledger control, untimely recording of property and equipment, and incomplete
    supporting documentation.    Accordingly, FMIS was designated as a legacy
    system. A legacy system is defined as an existing automated information system
    not selected for long-term use.

    Improvements to Financial Accounting and Reporting. Despite the problems
    identified with FMIS, MSC did take major steps to improve financial accounting
    and reporting. For example, as recommended by the Naval Audit Service, MSC
    established a plan to bring overall financial management systems into compliance



                                        4
        Findiw    A. Financial Reportiw      at the Militarv Sealift Command


with DOD regulations. In addition, MSC established standard operating
procedures for the Accounting Division. MSC also made a system change that
improved the calculation of accrued cargo expenses.

Financial Reporting Process. Because of past decisions regarding FMIS, the
current financial reporting process for the MSC WCF-Transportation       and
WCF-Navy is fragmented. For example, one of the primary financial reporting
requirements is the need for budgetary data in the financial reports. However, as
with all WCF-Navy activities, FMIS only captures proprietary information;
therefore, the billions of dollars in budgetary data needed for financial reporting
purposes have to be manually prepared at the MSC from the proprietary data
generated by FMIS. Another example of the fragmented accounting process is
that accounts receivable data must be manually entered into FMIS before it can
automatically generate an aging schedule. Also; MSC has two different DFAS
centers preparing the financial reports.

        DFAS Cleveland Center. For the WCF-Navy, MSC forwards data to the
DFAS Cleveland Center in the Department of the Navy Industrial Business
Information System chart of accounts. The DFAS Cleveland Center later converts
and crosswalks the data from the Department of the Navy Industrial Business
Information System chart of accounts to the Central Database chart of accounts.
The DFAS Cleveland Center then prepares the financial reports for WCF-Navy.

         DFAS Denver Center. The Omaha Operating Location sends the MSC
data for the WCF-Transportation to the DFAS Denver Center. The DFAS Denver
Center makes several adjustments to the MSC data, consolidates MSC with the
other Component Commands, and prepares the financial reports for
USTRANSCOM.          To complete the MSC financial reports with both WCF-Navy
and WCF-Transportation       data, the DFAS Denver Center sends the
WCF-Transportation      data back to the DFAS Cleveland Center for MSC
consolidation. Deficiencies in the MSC FMIS cause the incomplete capture of
financial data that affect financial reports and the ability to reconcile reports with
general ledger data. The MSC financial reporting process is just one example of
the many inconsistencies within USTRANSCOM with regard to its Component
Commands.

         MSC Transportation Accounting Function. USTRANSCOM is
working to reduce or eliminate the many procedural and systemic deficiencies
existing in accounting and financial management systems and processes
supporting WCF-Transportation.     USTRANSCOM and DFAS jointly developed
the Concept of Operations to improve the process for all the Component
Commands. In FY 1997, USTRANSCOM and DFAS developed the “Transfer of
Command and Control of MSC’s Transportation Accounting to DFAS.” The
objective was to consolidate MSC accounting support at the DFAS Omaha
Operating Location. Specifically, the participants decided that nine existing
DFAS Cleveland Center billets at MSC headquarters and 27 billets from MSC
would transfer to the DFAS Omaha Operating Location. The transfer of the MSC
transportation accounting function was completed in March 1998. The transfer of
personnel may correct the problems with duties and responsibilities and aid

                                       5
            Findirw A. Financial Reporting at the Militarv Sealift Command


    USTRANSCOM in its management oversight role. However, the transfer of
    personnel will not correct the MSC accounting system and its financial reporting
    deficiencies. The overall conclusion that MSC is in need of a new accounting and
    financial management system to correct financial reporting problems remains
    valid.


Moratorium     on Funding for Legacy Systems

    A moratorium on funding for enhancements or upgrades to legacy systems has
    impacted the ability of MSC to develop or significantly improve its FMIS
    accounting system. On October 13, 1993, the Deputy Secretary of Defense issued
    a memorandum on “ Accelerated Implementation of Migration Systems, Data
    Standards, and Process Improvements.”     The memorandum directed DOD
    organizations to stop funding for the development, modernization, or
    enhancement of legacy systems that were not selected to be migration systems.
    The DOD Senior Information Management Official must approve exceptions as
    absolutely essential to support DOD missions or to comply with the law.
    Essentially, the memorandum imposed a moratorium on funding for legacy
    system enhancements or upgrades throughout DOD.

    MSC recognized the need to modernize and upgrade FMIS to make it compliant
    with the Chief Financial Officer Act and to improve financial reporting. In
    compliance with the Deputy Secretary of Defense’s memorandum, MSC was
    precluded from modernizing FMIS and, therefore, could not correct financial
    reporting problems that various audits identified. Until MSC can replace FMIS,
    the financial reports will continue to be in error and will not provide accurate
    financial information for the USTRANSCOM and the Department of the Navy.
    MSC expected an accounting and financial management system for the
    transportation business area to result from the Strategy. However, numerous
    changes to the anticipated Strategy have taken place. The impact of the changes
    is discussed in Finding B.


Summary

    Financial reporting problems continue for MSC. Previously identified problems
    remain uncorrected because MSC abided by the moratorium on funding legacy
    systems enhancements, recognizing that it was not prudent to make significant
    upgrades or enhancements to the FMIS, a system scheduled for replacement.
    Accordingly, until MSC can replace FMIS, the financial reports from MSC will
    continue to be in error and will not provide accurate financial information for
    USTRANSCOM and the Navy. This report does not make recommendations to
    correct the FMIS because recommendations from prior audits are still outstanding.




                                         6
            Finding B. The Migration System
            Strategy for Transportation
            USTRANSCOM will not have a standard transportation accounting
            system (STAS) to properly manage the transportation business area
            because DFAS and USTRANSCOM did not execute the Interim
            Migratory Accounting Strategy (the Strategy) for the transportation
            business area as planned. Specifically, the Strategy shifted its original
            approach for the transportation business area and merged the requirements
            of two major General Fund customers with the transportation business
            area. With that shift in the Strategy, DFAS and USTRANSCOM did not
            accomplish the changes needed to fully implement the STAS. As a result,
            in January 1998, USTRANSCOM and the Component Commands
            abandoned the proposed STAS nominated in the Strategy and plan to
            develop or upgrade their own Service-unique accounting and financial
            management systems. The transportation business area’s current approach
            will no longer reduce four disparate existing systems to a single standard
            accounting system.


Shift in the Migration Accounting Strategy for Transportation

     Understanding the impact of a shift in the Strategy for the transportation business
     area of the WCF requires an understanding of the history of the Strategy. The
     Strategy included substrategies for the General Fund and the WCF customers.
     Customers of both funds had separate working groups responsible for developing
     and implementing their planned strategies. For the WCF customers, the Defense
     Business Operations Fund Corporate Board (the Corporate Board) was
     established. The Corporate Board became responsible for system selection for all
     WCF business areas, to include transportation. However, because of the
     uniqueness and complexity associated with the transportation business area, the
     Corporate Board needed to take care when selecting a STAS for USD(C)
     approval.

     The Working Capital Fund Business Areas. On February 24,1994, DFAS
     established and the Corporate Board approved a two-phase accounting system
     strategy for the Defense Business Operations Fund. As noted in Inspector
     General, DOD, Report No. 98-014, “The Working Capital Funds Interim
     Migratory Accounting Strategy,” October 24, 1997, the first phase, the Strategy,
     focused on migrating to a separate accounting system for each WCF component in
     each business area. The Strategy did not establish a formal completion date. The
     second phase was to transition from the interim migratory accounting systems to a
     selected number of migratory accounting systems by evaluating opportunities to
     use the best interim migratory accounting systems.
         Findinp B. The Mipration System Stratew       for TransDortation


However, the Strategy excluded the modernization of feeder systems for each
WCF component in each business area to include the transportation business area.

The Transportation Business Area. The objective of the Strategy was to select
an interim migratory accounting system that would support the WCF, the General
Fund, and the transportation-unique  requirements of the transportation business
area. According to the Corporate Board, the Strategy would include a system that
would cross Service boundaries and support DOD requirements. The need for a
single system was critical because the transportation business area was supported
by four disparate Service-unique accounting systems. Those disparate systems
were inadequate and could not support the Defense Business Operations Fund
policies and procedures, did not provide accurate and timely financial data, and
did not provide adequate tools for managing costs.

In 1994, recognizing the uniqueness of the transportation business area, the
Corporate Board recommended and the USD(C) directed that an economic
analysis of recommended systems be done focusing on reducing the number of
legacy systems to achieve a single standard accounting system. That economic
analysis supported the selection of the Corps of Engineers Financial Management
System (CEFMS) to support the transportation business area. The CEFMS
Technical Analysis dated March 21, 1996, summarized the pros and cons of
selecting CEFMS as the STAS. The analysis specifically noted that CEFMS, as
is, would not meet DFAS requirements for the STAS. CEFMS needed to be
modified to work. The required modifications included adding functionality to
incorporate transportation business area requirements, adding software to replace
legacy system interfaces, and converting legacy data to the STAS. The estimated
cost for DFAS to make those modifications to CEFMS was $19.3 million, and the
timeframe was 2 years. DFAS recommended CEFMS for the transportation
business area, and on May 17,1996, the USD(C) approved the selection. Within
2 weeks after CEFMS was recommended and approved, the Strategy shifted. The
USD(C) merged the transportation business area and the Army and Air Force
General Fund accounting system requirements into a single accounting system
acquisition and development project. The revised Strategy focused on the Army
and Air Force General Fund requirements first.

        Single System Designated for Three Major Customers. On May 28,
1996, and July 25, 1996, the USD(C) directed DFAS to combine the system
requirements of the Army and Air Force General Funds and the transportation
business area into the development of CEFMS. On April 23, 1997, CEFMS was
renamed the Defense Joint Accounting System (DJAS) because of its application
to more than one DOD organization.

The USD(C) merged the three customer requirements into the DJAS life-cycle
management process. According to DFAS, the merging of General Fund system
requirements with WCF and transportation-unique   system requirements was not a
major problem in the DJAS development. However, working with three Service-
unique transportation system requirements made system development more
difficult. As a result of the DFAS recommendations and USD(C) approvals, the
DJAS implementation would consist of a single system modified to meet Service-
unique General Funds requirements. In addition, DJAS would be modified to
                                     8
             Findiw    B. The Migration System Stratew       for Transportation


    meet the transportation business area’s General Funds, WCFs, and transportation-
    unique requirements. The merging of the three major customer requirements
    forced DFAS to prioritize implementation of DJAS. This prioritization greatly
    affected the timelines for the STAS.

             Priority for DJAS General Fund Customers. DFAS focused its efforts
    on developing and deploying DJAS for its large General Fund customers first.
    DFAS proposed using a tailored incremental approach strategy for the DJAS
    implementation, consisting of two increments. Increment 1 would address DFAS
    Indianapolis Center customers, primarily the Army, and increment 2 would
    address DFAS Denver Center, primarily the Air Force, and transportation
    business area customers. Under the DFAS approach, DJAS for the
    WCF-Transportation      prototype sites would not have been initially deployed until
    January 2000 at the earliest and would not have been completed until September
    2003. USTRANSCOM and its Component Commands considered the proposed
    DJAS deployment schedule for transportation unacceptable. By that time,
    USTRANSCOM and its Component Commands had invested nearly 5 years in
    the transportation business area’s accounting and financial management systems
    acquisition. The merger relegated transportation’s urgent system needs to a lower
    priority in the overall DJAS implementation process. If the merger had not taken
    place, USTRANSCOM and its Component Commands could have been farther
    along in deploying a STAS. The shift delayed the implementation timeframe for
    a STAS, and virtually halted the modifications needed to make DJAS work as a
    STAS for the transportation business area.


The Migration Accounting Strategy Implementation

    The shift in the priorities to the General Fund customers instead of the
    transportation business area halted the Strategy for the STAS. As noted in the
    Technical Analysis for CEFMS, USTRANSCOM had to modify three areas to
    make DJAS work for transportation. USTRANSCOM needed to define the
    requirements, replace the legacy systems, and standardize the data elements.
    Ensuring that all those requirements were met would become part of the
    feasibility study needed to determine whether the transportation business area
    could migrate to a single standard accounting and financial management system.

    Defining Transportation Business Area Requirements. The major
    transportation requirement that was not available in DJAS was the
    Cargo/Passenger Revenue Tracking and Billing Subsystem. The system provides
    support for the majority of the costs acquired in the transportation area. DJAS did
    not contain the accounts needed for the WCF, so it could not perform unit cost
    calculations or provide the details needed to support the WCF budget authority.
    USTRANSCOM would need to implement the Cargo/Passenger Revenue
    Tracking and Billing Subsystem to correct that deficiency.

    Replacing Legacy Systems. DJAS, as the STAS, was to replace the three legacy
    systems of the Component Commands and the General Fund system that the Air
    Mobility Command used. To replace those systems, USTRANSCOM and DFAS
                                          9
            Findinp B. The Mipration System Strateev for Transr>ortation


   would need to develop 9 interface modules and 34 interface routines. Those are
   major changes that take time and effort. Without those changes, no system can be
   used as the STAS.

   Standardizing Data Elements. Once USTRANSCOM defines the requirements
   and eliminates the legacy systems, USTRANSCOM must convert the databases
   used in the legacy systems for use in DJAS. Consequently, USTRANSCOM
   would have to convert the current Air Mobility Command and MSC billing
   systems database to the Cargo/Passenger Revenue Tracking and Billing
   Subsystem database. In addition, DFAS would need to convert the general ledger
   account structure, the current fiscal year data, and the historical data used in the
   old legacy systems to meet the requirements of DJAS. The minimum timeframe
   needed to complete the changes was 2 years, and the estimated cost for DFAS was
   $19.3 million. With the shift of priorities to the General Fund customers,
   USTRANSCOM and DFAS did not define or implement the transportation
   requirements. As such, we could not determine the timeframe for actually
   implementing a STAS.


USTRANSCOM          Reaction to the Strategy Changes

   As discussed in Inspector General, DOD, Audit Report No. 98-014, the Strategy
   has undergone numerous changes. The Strategy changes caused USTRANSCOM
   to shift its system acquisition approach. The current approach of
   USTRANSCOM will no longer reduce four disparate existing systems to a single
   standard accounting system. Retaining the legacy systems will affect the site
   consolidation of accounting support.

   The Standard Accounting System Approach. The transportation business
   area’s current approach will no longer reduce four disparate existing systems to a
   single standard accounting system. After nearly 5 years of anticipating a standard
   accounting system, USTRANSCOM has not developed its systems requirements,
   eliminated Service-unique legacy systems, or standardized accounting data and
   procedures. Because of delays, shifts in priorities, and the time required to
   properly implement the Strategy, USTRANSCOM and its Component Commands
   abandoned the STAS and decided to develop their own strategy for acquiring an
   accounting and financial management system. Although USTRANSCOM stated
   in its overview to the FY 1997 USTRANSCOM financial statements that it began
   working with DFAS to identify alternatives to implement a single system, its
   current approach does not support that statement and is in direct conflict with the
   Deputy Secretary of Defense’s October 13, 1993, memorandum.         The
   memorandum requires DOD to focus on accelerating the pace for defining
   standard baseline process and data requirements, selecting and deploying
   migration systems, and implementing data standardization. USTRANSCOM does
   not plan to define data requirements, select and deploy a migration system, or
   standardize data. The transportation business area currently consists of a DFAS
   General Accounting and Finance System, three legacy accounting and financial
   management systems, and no system at Headquarters, USTRANSCOM.
   USTRANSCOM and its Component Commands intend to proceed as follows:
                                        10
          Findine B. The Mbration           System Stratew        for Tranwortation


         l The Military Traffic Management Command will use DJAS for
accounting and financial management needs. The WCF prototype for the
Component Command is scheduled for March 2000. The full-scale system
deployment is scheduled to be completed by September 2003, at an estimated cost
of $28.1 million.

         l  MSC plans to implement a commercial off-the-shelf alternative,
possibly the Oracle Government Financial Applications, for accounting and
financial management system needs. USTRANSCOM will monitor and evaluate
the deployment progress of the Oracle Government Financial Applications
upgrade, if selected, before considering the use of the software application for
Headquarters, USTRANSCOM.          USTRANSCOM could select a fifth system for
operations.

         l  The Air Mobility Command plans to use the recently designated
General Fund interim migratory accounting system for the Air Force DFAS
General Accounting and Finance System and plans to upgrade the Airlift Services
Industrial Fund Integrated Computer System. The Component Command has not
yet projected cost estimates or timeframes for the system implementation.

The transportation business area’s current approach will no longer reduce four
disparate existing systems to a single standard accounting system. In addition, the
transportation business area is not including the modernization of feeder systems
in conjunction with the current system development approach as required by the
National Defense Authorization Act for FY 1998.

To minimize the effect of the changes, USTRANSCOM should not abandon the
concept of a STAS without studying the alternatives. USTRANSCOM and its
Component Commands need to perform an accelerated feasibility study to
determine whether the transportation business area can migrate effectively to a
single standard accounting and financial management system. The study should
also take into consideration the transportation business area feeder systems that
have been omitted from the transportation system development process.
USTRANSCOM and its Component Commands should comply with the
appropriate Office of Management and Budget circulars; DOD regulations to
include DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
Acquisition Programs (MDAPs) and Major Automated Information System
(MAIS) Acquisition Programs”; and the Clinger-Cohen Act of 1996.2 By
complying with the DOD life-cycle management criteria and the Clinger-Cohen
Act of 1996, the transportation business area components will reduce the risk
involved with information technology investments.




‘The Clinger-Cohen Act of 1996 requires agencies to establish a planning process for capital
investments in information technology, encourages interagency and Government-wide
acquisitions of systems, and when advantageous, encourages the use of commercial off-the-shelf
software. It also authorizes chief information officers at the agencies and stresses integrated
information systems.

                                           11
         Findiw   B. The Mipration Svstem Stratew         for Tranwortation


Elimination of Legacy Systems and Consolidation of Sites Approach. The
transportation business area’s decision not to implement DJAS as the STAS and
to revert back to the existing systems is indicative of the overall DOD problem
with implementing the Strategy. Inspector General, DOD, Audit Report No.
98-014 noted the numerous changes in the DOD WCF system acquisition strategy.
For example, of the original 17 accounting systems selected as interim migratory
systems, 3 systems were redesignated legacy systems, 5 were reconsidered for
inclusion in the Strategy, 2 were being studied for possible merger, and 3 had to
change their original approach to system enhancements.      As of January 1998,
DFAS and other organizations decided not to follow through on the Strategy that
selected DJAS as the DOD Standard Accounting System and the STAS. The
history of USTRANSCOM and its search for an accounting and financial
management system is summarized in Appendix C. Consequently, legacy
systems will not be eliminated, and site consolidations may not prove
cost-effective or efficient.

         Elimination of Legacy Systems. Because of the changes in the Strategy,
the transportation business area abandoned DJAS, the system that could have
eliminated the three legacy systems and absorbed a general fund system. The
transportation business area’s current approach will maintain the four existing
systems. If the current approach is maintained, the CEFMS Technical Analysis
will not realize its anticipated 33-percent reduction in technical personnel and will
not lower hardware operating costs.

        Component Command’s Site Consolidation. The existing
USTRANSCOM accounting and reporting process does not benefit from
standardized policies, procedures, and accounting systems. The Component
Commands all operate under separate accounting systems, policies, and
procedures, which are inconsistent with desired future DOD accounting and
finance operations. DFAS Headquarters selected the DFAS Denver Center to
provide overall WCF-Transportation    accounting support. DFAS Denver Center
chose the DFAS Omaha Operating Location for the WCF-Transportation
accounting functions.

The continued consolidation of systems and transition of users to a standard suite
of systems is critical to the success of the DFAS Omaha Operating Location site-
consolidation effort. The elimination of legacy or Service-unique systems is
needed for DFAS to reduce system operating costs and minimize the funds
required to correct accounting system deficiencies. The feasibility study for the
migration system should define the needed elimination. According to the “ DFAS
Accounting Systems Strategic Plan for the Department of Defense,” approved on
February 13,1997, supporting all of the USTRANSCOM Service-unique systems
at the Omaha Operating Location and the other regional locations is not feasible
or economical with the resources (personnel and funding) available. The former
DJAS Program Manager concluded that without consolidated Service
requirements, an extensive conversion and translation of Component Commands’
data would be necessary and expensive. According to DFAS, to the extent that
Service-unique systems are not replaced, DFAS must retain a dedicated staff
using non-standard processes.

                                      12
             Findiw   B. The Migration System Stratew        for Tranwortation


    During FY 1996, the Air Mobility Command’s Defense Accounting Office moved
    to Omaha, Nebraska. In May 1997, the Military Traffic Management Command’s
    accounting support moved from Bayonne, New Jersey, to Omaha, and the
    transportation accounting function of MSC moved to Omaha in March 1998.
    Because implementing DJAS as the STAS was halted, the Omaha Operating
    Location apparently will now function with Service-unique accounting and
    financial management systems.


Summary

    The proposed STAS for the transportation business area will not materialize
    because of shifts in the Strategy. USTRANSCOM and its Component Commands
    have initiated steps to develop or upgrade existing Service-unique accounting and
    financial management systems for the transportation business area and could add
    an additional system for Headquarters, USTRANSCOM.          That action is in direct
    conflict with the Deputy Secretary of Defense’s memorandum and the Corporate
    Board’s vision for transportation. USTRANSCOM and its Component
    Commands need to perform an accelerated feasibility study to determine whether
    the transportation business area can migrate effectively to a single standard
    accounting and financial management system. The study should also take into
    consideration the approximately 16 critical data feeder systems of the
    transportation business area that have been omitted from the system development
    process. USTRANSCOM should also comply with the DOD life-cycle
    management criteria and the Clinger-Cohen Act of 1996, which should reduce the
    risk involved with information technology investments.




                                         13
             FindinP B. The Mipration System Strategv for Transnortation




Recommendations,        Management Comments, and Audit
Response

    B.l. We recommend that the Commander in Chief, U.S. Transportation
    Command, and the Director, Defense Finance and Accounting Service:

            a. Perform an accelerated feasibility study to determine whether the
    transportation business area can migrate to a single standard accounting and
    financial management system.

            b. Determine the cost to migrate to a single system instead of
    developing or upgrading four disparate systems.

    U.S. Transportation Command Comments. The U.S. Transportation
    Command, nonconcurred.       The Command stated that migrating to a single system
    would be cost prohibitive, would take too long to complete, and would provide
    greater risk. In addition, scarce resources should instead be directed toward
    developing and implementing integrated financial management systems for the
    Command to achieve the DOD goal of an unqualified opinion on the FY 1999
    financial statements. The Command stated that the DOD moratorium on funding
    new systems and the delays in selecting and implementing a migratory accounting
    system forced the Military Sealift Command to rely on a non-compliant system.
    Those delays prompted the Command to seek and get authority to explore other
    solutions in February 1998. In May 1998, the Command received approval and
    funding to implement a commercial off-the-shelf system that will meet all
    requirements.

    Audit Response. We agree that scarce resources should be directed toward
    developing and implementing integrated financial management systems. The
    actions taken by the Command, however, did not comply with the Office of
    Management and Budget Circular No. A-127-Revised, “ Financial Management
    Systems,” July 23, 1993, the Deputy Secretary of Defense’s memorandum of
    October 13, 1993, the 1994 Corporate Board’s vision for transportation, or the
    DOD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs.” There was no feasibility study to show that
    migrating to a single system would be cost prohibitive, would take too long to
    complete, and would provide greater risk. The latest guidance issued such as the
    Clinger-Cohen Act of 1996 and the Secretary of Defense’s memorandum of
    May 15, 1998, contradicts the Command’s statement on the DOD position on
    migrating to a single system.

    The Office of Management and Budget Circular No. A-127 states that each
    agency shall establish and maintain a single, integrated financial management
    system. The Deputy Secretary of Defense’s memorandum requires DOD to focus
    on accelerating the pace for defining standard baseline process and data
    requirements, selecting and deploying migration systems, and implementing data
    standardization. These requirements could be accomplished through the
                                        14
         Findinp B. The Mipration System Stratew          for Transportation


feasibility study. In addition, in 1994, the Corporate Board’s vision for
transportation was to focus on reducing the number of legacy systems to achieve a
single standard accounting system. DOD Regulation 5000.2-R recommends that
system acquisitions that may not meet the dollar requirements for a formal
acquisition review should still follow the process for more efficiency and less risk.
The Clinger-Cohen Act requires that agencies implement a process for
maximizing the value and assess and manage the risks associated with the
acquisition of information technology. The Secretary of Defense’s memorandum
instructs the DOD to modify systems and retool processes in order to adequately
capture and report financial information.

We understand that the delays in acquiring a DOD-wide financial management
system made it difficult for the Command. The Command states that the
ORACLE Government Financial Management system will meet all requirements.
However, the Command has not demonstrated that fact. Before the Command
decided to implement this system, the Command, in conjunction with DFAS,
should have assessed the benefits and problems associated with migrating to a
single system. Without the study, the Command can not support the position that
migrating to a single system would be costly, take too long, and increase risk. A
feasibility study would reduce risk of future problems. We request the Command
reconsider its position and provide additional comments to the final report.

Defense Finance and Accounting Service Comments. The Defense Finance
and Accounting Service nonconcurred.      The Director stated that the individual
components of the U.S. Transportation Command are supported by their
respective Services’ financial management architecture. As a result, it would be
quicker and more cost effective to allow the components to use the migratory
systems selected by their Services. This approach is consistent with the “best fit”
migratory strategy that allows for a suite of compliant migratory systems.

Audit Response. The Defense Finance and Accounting Service comments were
not responsive. We understand that the Transportation components are currently
supported by their respective Services’ financial management architecture.
However, the purpose of a feasibility study is to determine whether the
transportation business area can migrate to a single system or whether it is better
to remain with the respective Services’ financial management systems. The “best
fit” migratory strategy should be used only if the feasibility study demonstrates
that multiple systems are best for the transportation business area. Accordingly,
we request that the Defense Finance and Accounting Service reconsider its
position and provide additional comments to the final report.

B.2. We recommend that the Commander          in Chief, U.S. Transportation
Command:

        a. In coordination with the transportation Component Commands,
prepare a strategy to include detailed plans to modernize all data feeder
systems that support the transportation business area. The plan should
provide details concerning the number of transportation feeder systems that
provide information for financial statements, milestones for implementing
corrections, and an estimate for the cost to modernize the transportation
                                     15
         FindinP B. The Mipration System Strateev for Transnortation


feeder systems as required by the National Defense Authorization    Act for
FY 1998.

        h. Implement the requirements of DOD Regulation 5000.2-R,
“Mandatory Procedures for Major Defense Acquisition Programs (MDAPs)
and Major Automated Information System (MAIS) Acquisition Programs,”
for the replacement transportation business area accounting and financial
management system effort.

        c. Implement the requirements of the Clinger-Cohen Act of 1996, for
the replacement transportation business area accounting and financial
management system effort. Specifically, implement the requirement to
design and implement a process for maximizing the value and assessing and
managing the risks associated with the acquisition of information technology.

Management Comments. The U.S. Transportation Command, concurred and
will comply with regulatory requirements for future replacement of financial
management systems.

Audit Response. The U.S. Transportation Command comments do not address
the recommendation.    The Command should provide a specific plan to modernize
feeder systems and milestones for executing the plan and complying with the
regulatory requirements. We request that the Command provide additional
comments to the final report.




                                   16
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    Audit Work Performed. We limited our review to the issue areas in the USD(C)
    request. We assessed the financial management practices at MSC to include
    financial reporting and standard operating procedures. In addition, we reviewed
    the potential transfer of MSC transportation accounting personnel to DFAS and
    evaluated the planned financial accounting and management system for MSC and
    USTRANSCOM.          Also, we assessed whether the modernization of transportation
    data feeder systems was included in the transportation business area’s interim
    accounting system development effort, We relied on previous audit work that the
    Inspector General, DOD, and the Naval Audit Service performed concerning the
    operational status of the MSC FMIS. We performed our work at Headquarters,
    MSC; Headquarters, USTRANSCOM; Headquarters, DFAS, and the DFAS
    Cleveland and Denver Centers, As of September 30, 1997, MSC provided
    25 percent, or $1 billion, of the revenues and expenses of USTRANSCOM.         At
    the end of FY 1997, MSC employed approximately 7,100 people.

    DOD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Department of Defense has
    established 6 DOD-wide corporate level performance objectives and 14 goals for
    meeting these objectives. This report pertains to achievement of the following
    objectives and goals.

               l Objective: Fundamentally      reengineer the Department      and achieve a
     2 1st century infrastructure.

             l  Goal: Reduce costs while maintaining       required military capabilities
     across all DOD mission areas. (DOD-~)

     DOD Functional Area Reform Goals. Most major DOD functional areas have
     established performance improvement reform objectives and goals. This report
     pertains to achievement of the following functional area objectives and goals.

            l    Objective:   Consolidate   finance and accounting     operations.

            l    Goal: Consolidate   and standardize financial systems.       (FM-2.1)

            l    Goal: Reduce and improve accounting        systems.    (FM-2.2)

            l    Objective:   Reengineer    DOD business practices.

            l Goal: Improve data standardization        of finance and accounting     data
     items. (FM-4.4)

             l   Objective:   Improve management      incentives.



                                              18
                                                 Appendix A. Audit Process


            l Goal: Use the Project Management Office for Accounting Systems to
    provide centralized management control and oversight for all migratory and
    interim migratory accounting systems. (FM-7.5)

           l    Objective:   Become a mission partner.

           l    Goal: Facilitate process improvement.     (ITM-1.3)

           l    Objective:   Provide services that satisfy customer information   needs.

           l    Goal: Modernize and integrate Defense information      infrastructure.
    (ITM-2.2)

    General Accounting Office High Risk Area. The General Accounting Office
    (GAO) has identified several high risk areas in the DOD. This report provides
    coverage of the Defense Financial Management and Information Management and
    Technology High risk areas.

    Use of Computer-Processed Data. To achieve our audit objective, we relied on
    computer-processed    data without testing the general and application controls.
    Although the data were not significant for our audit work, we compared the data
    on the monthly disbursement vouchers to the voucher system without any
    discrepancies noted. As a result of the tests and assessments, we concluded that
    the computer-processed    data were sufficiently reliable to meet the audit
    objectives,

    Audit Period and Standards. We performed this performance audit from July
    1997 through February 1998 in accordance with auditing standards issued by the
    Comptroller General of the United States as implemented by the Inspector
    General, DOD, and accordingly included such tests of management controls as
    were considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.


Management        Control Program

    DOD Directive 5010.38, “ Management Control Program,” and DOD
    Instruction 50 10.40, “ Management Control Program Procedures” dated August
    26, 1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of MSC management controls over financial management practices.
    Specifically, we reviewed management controls over documenting overhead
    distribution procedures between WCF-Transportation  and WCF-Navy;

                                            19
                                         Appendix A. Audit Process


transferring MSC transportation accounting personnel to DFAS; implementing
recommendations from prior Inspector General, DOD, Audit Report No. 95-259;
and correcting FMIS deficiencies. Because we did not identify a material
weakness, we did not assess management’s self-evaluation.

Adequacy of Management Controls. Management controls over financial
management practices were adequate as they applied to the audit objectives.




                                    20
Appendix B. Prior Audit Coverage


General Accounting Office

     Report No. AIMD-98-5 (OSD Case No. 1427), “DIRM [Defense Information
     Resource Management]: Poor Implementation of Management Controls Has Put
     Migration Strategy at Risk,” October 20, 1997.

     Report No. AIMD-96-99 (OSD Case No. 12 lo), “ DOD Accounting Systems:
     Efforts to Improve System for Navy Need Overall Structure,” September 30,
     1996.

     Report No. AIMD-96-7 (OSD Case No. 1OSO), “ CFO [Chief Financial Officer]
     Act Financial Statements: Increased Attention Must Be Given to Preparing
     Navy’s Financial Reports,” March 27, 1996.

     Report No. NSIAD-96-60 (OSD Case No. 1023), “Defense Transportation:
     Streamlining of the U.S. Transportation Command Is Needed,” February 22,
     1996.

     Report No. NSIAD-96-41 (OSD Case No. 1014), “Military Sealift Command:
     Weak Controls and Management of Contractor-Operated  Ships,” December 12,
     1995.


Inspector General, DOD

     Report No. 98050, “Defense Business Operations Fund Adjustments at the
     Defense Finance and Accounting Service Denver Center,” January 20, 1998.

     Report No. 98-O 14, “The Working Capital Funds Interim Migratory Accounting
     Strategy,” October 24, 1997.

     Report No. 97-206, “Defense Finance and Accounting Service Acquisition
     Strategy for a Joint Accounting System Initiative,” August 22, 1997. Report
     No. 96- 180, “ The General Fund Interim Migratory Accounting Strategy,” June
     26, 1996. Report No. 95-259, “Internal Controls for the Military Sealift
     Command Portion of the Transportation Business Area of the FY 1994 Defense
     Business Operations Fund Financial Statements,” June 28, 1995.


Naval Audit Service

     Report No. 040-97, “Fiscal Year 1996 Consolidating Financial Statements of the
     Department of the Navy Defense Base Operations Fund,” June 16, 1997.



                                        21
Appendix C. Chronology of the Transportation
Migration Strategy

Dates                                         Action Taken

August 1992                          DBMS Designated as Migratory System
August 1992                          CEFMS Recommended as Migratory System
FY 1993                              DBMS Selected as DOD Migratory System
June 1993                            Transportation CIM Initiative Began
September 1993                       Selection of DBMS Revisited
October 1993                         DBMS Selection Withdrawn
September 1994                       FMIS Recommended for Transportation
September 1994 - November     1994   Discussions Held on FMIS
December 1994                        EA for CEFMS and FMIS
November 1995                        FMIS Eliminated and EA on CEFMS
                                     Continued
February 1996                        CONOPS for DOD Transportation Completed
April 1996                           Economic Analysis Completed, CEFMS
                                     Recommended
May 1996                             CEFMS Approved for Transportation
May 1996 - July 1996                 General Fund and Transportation
                                     Requirements Combined
March 1997                           CEFMS MNS Completed
April 1997                           USTRANSCOM Concurred with MNS
April 1997                           CEFMS Changed to DJAS
May 1997 - December    1997          Discussions with USTRANSCOM
                                     and DFAS on CEFMS
December 1997                        CEFMS Approved for Further Study
February 1998                        Migration Strategy Changed

        DBMS - Defense Business Management System
        CIM - Corporate Information Management
        EA - Economic Analysis
        CONOPS - Concepts of Operations
        MNS - Mission Needs Statement




                                       22
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Logistics)
       Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications,      and Intelligence)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department   of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Commander, Military Sealift Command
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force


Unified Command
Commander   in Chief, U.S. Transportation   Command


Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Information System Agency
Inspector General, Defense Intelligence Agency




                                            23
Appendix D. Report Distribution


Non-Defense Federal Organizations                   and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                            24
Part III- Management   Comments
U.S. Transportation                Command Comments

                            UNITED STATES TRAN~P$~TATlON            COMMAND
                                        ScalTAmmML-7




                                                                              5 August 1998



          MEMOIXNIXJM        FOR DOD IG (ATTN: Ms. Barbara Sauls)

          FROM: TCJ8

          SUBJECT: DOD IG Dti Audit Report on ‘Financial Management Practices in the
                   Military Sealift Command” (Project 7FH-5046)

          We have reviewed the DOD IG draft audit report on “Financial Management Practices in
          the Military Seti Command” and provide comments at Attachment 1. If you have any
          questions or need additional information, please contact our audit focal point, Mrs. Nanc)
          Brown, TCJI-B, 618-256-8795 @SN 576-8795).




                                                       MIC%AEL T. RADER
                                                       Captain, USN
                                                       Director, Program Analysis and
                                                       Financial Management

          Attachment:
          USTRANSCOM Response

          cc:
          USTRKNSCOMITCDClTCJ6
          MSCM85 (Audit Focal Point)




                                           26
U.S. Transoortation     Command Comments




                          USTRANSCOM Comments on DOD IG Draft Audit Report on
                        ‘Pinancial Management Practices in the Military Sealift Command’
                                              (Project 7FH-5046)


             Finding A: Concur. Financial Management Information System (FMLS) should be
             replaced for DFAS to provide accurate financial information for USTRANSCOMMSC.
             As a result. there is no need for the audit to address corrective actions for FMIS.

             Finding B. Partially ooncur.

             Recommendation B.l. We recommend that the Commander in Chief, U.S.
             Transportation Command, and the Director, Defense Finance and Accountinp Service:

               a. Perform an accelerated feasibility study to determine whether the transportations
             business area can migrate to a single standard accounting and financial managemenl
             system.

               b. Determine the cost to migrate to a single system instead of developing or upgrading
             four disparate systems.

                  USTRANSCOM Response:

                  Nonconcur. LJSTRANSCOM, along with the rest of DOD, has paxticipated in
             several studies for systems’ migation in recent years. USTRANSCOM agrees with the
             DOD position that migrating to a single system (in lieu of Services’ systems) would be
             cost prohibitive, would take too long to complete, and would provide greater risk.
             Scarce resources, both dollars and personnel, should instead be directed toward
             developing and implementing integrated financial management systems for
             USTRANSCOM to achieve the DOD Fy99 goal-financial            statements with unqualified
             opinions. CLOSED.

             Recommendation B-2: We recommend that the Commander in Chief, U.S.
             Transportation Command:

                a. In coordination with the transportation Component Commands, prepare a strategy to
             include detailed plans to modernize all data feeder systems that support the transportation
             business area. The plan should provide details conoerning the number of transportation
             feeder systems that provide information for financial statements, milestones for
             implementing corrections, and an estimate for the cost to modernize the transportation
             feeder systems as required by the National Defense Authorization Act for FY -1998.

                b. Implement the requirements of DOD Regulation SOOOZR,“‘Mandatory Procedures
             for Major Defense Acquisition Programs (MDAPs) and Major Automated Information
             System (MATS) Acquisition Programs,” for the replacement transportation business area
             accounting and financial management system effort.




                                                             27
U.S. Transportation      Command Comments




              c. Jrnplcrnent the rquirements of the Clinger-Cohen Act of 1996, for the replacement
           transportation business area accounting and Snancial management system effort.
           Specifically, implement the requirement to design and implement a process for
           maximizing the value and assessing and managing the risks associated with the
           acquisitioo of information technology.

                 USTRANSCOM Response:

                 Concur. USTRANSCOM will comply with regulatory requirements for future
           replacement of USTRANSCOM financial management systems. CLOSED.



           GENERAL COMMENTS:

           The following is provided for clarification and additional history on the decisions made
           on commercial off-the-shclf(COTS) systems for MSC and addresses the DOD IG’s
           obsavations on pages 11-14 of the draft report:

              MSC has long been aware of the deficiencies in the FMTS, e g. that EMT.5is not fully
           compliant with all DODXFO regulations. Given the moratorium that directed DOD
           organizations to stop funding for the development, modernization, or enhancement of
           legacy systems that were not sclcctcd to be migration systems; however, no corrective
           action was taken. Bather, MSC was forced to work with a system that required
           improvements yet could not take action to make those changes.

             As you how. the Army Corps of Engineers Financial Management System (CEFMS)
           was selected as the transportation migration system aud was renamed Defense Joint
           Accounting System (DJAS). COMSC consistently expressed concerns that DJAS would
           not sotve MSC’s financial management deficiencies.

              Because of the delays in implementing DJAS as the DOD Transportation Financial
           System, USTRANSCOM was given authority in Feb 98 to explore other solutions. MSC
           subsequently initiated discussions with DFAS and USTR4NSCOM, and received
           approval and funding (ii May 98) to proceed with a COTS system that would meet all
           requirements. MSC is now in the process of implementing the ORACLE Government
           Financial System by 1 Ott 99.

              By necessity, MSC continued to rely on FMIS for over 3 years while waiting   for the
           implementation of DJAS, and each year the Naval Audit Service cited FMJS +      being
           non-compliant with CFO requiremcnts and for other inadequacies. While MSC       is now
           proceeding with the implementation of OIL4CLE, time constraints have caused     a severe
           drain on MSC financial and manpower resources.




                                                                28
Defense Finance and Accounting Service
Comments

                  DEFENSE        FINANCE       AND     ACCOUNTING          SERVICE-

                                  ,931 ,EFFERSON 0A”lS        HIGHWAY

                                     ARLINGTON.      VA 2224&52Bl

                                                                                             SEP - I !CEE



     MEMORANDUM         FOR DIRECTOR FOR FINANCE AND ACCOUNTING, OFFICE OF THE
                              ASSISTANT INSPECTOR GENERAL FOR AUDITING, OFFICE
                               OF THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

     SUBJECT:    Audit Report of Financial Management Practices in the Military Sealift Command
                 (Project No 7FH-5046)


            We have reviewed the subject draft audit report and provide the following comments.

            Recommendation B. 1. Nonconcur. The individual Transportation Commands
            are supported by their respective Services’ financial management architecture
            and employ different practices and coding structures to capture financial
            management information. In order to achieve compliance with the
            requirements of the Chief Financial Offtcer’s Act as quickly as possible,
            reduce development, interface and conversion costs, and mitigate risk,
            migratory systems have been selected to best accommodate the respective
            requirements of these Commands. This approach is consistent with the
            “best tit” migratory strategy to replace legacy systems as quickly as possible
            with a suite of compliant migratory accounting systems

              Questions regarding this memorandum may be addressed to the Director for Systems
     Integration, MS Lydia Moschkin. at (703) 6072657




                                        I    29
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

F. Jay Lane
Salvatore D. Guli
David F. Vincent
Barbara A. Sauls
Ronald D. Blake
Thomas P. Byer
Gregory M. Mennetti
Paul D. Johnston
Angela D. Clayton
